CERTIFICATE OF SERVICE
I hereby certify that on this 15th day of March, 2021, one copy of the
Petition for Writ of Certiorari, one copy of the Appendix to that Petition, and one
copy of the Motion for Leave to Proceed In Forma Pauperis, were mailed postage
prepaid to the Solicitor General of the United States, Room 5614, Department of
Justice, 950 Pennsylvania Avenue, Washington, D.C. 20530-0001. I further certify
that all parties required to be served have been served.
/s/ Tina Schneider
Tina Schneider
44 Exchange St., Suite 201
Portland, Maine 04101
Counsel for Petitioner

